U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            February 2009
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the fourteenth since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from July 1, 2008, through
December 31, 2008.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct "involving Department attorneys, investigators, or law
enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 §8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                                Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001.2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001
matters, a second who assists on FBI matters, and a third who provides
support on DEA and ATF cases. In addition, five Investigative Specialists
support the unit and divide their time between Section 1001 and
FBI/DEA/ATF responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, each complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct.3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs for handling. In certain referrals, the OIG requires the components to
report the results of their investigations to the OIG. In most cases, the OIG
notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the border patrol are sent to the

      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                           Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Equal Employment Opportunity Commission, the
Department of State, the Internal Revenue Service, and the Department of
Education. In addition, we have referred complainants to state Departments of
Correction that have jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

     A. Complaints Processed This Reporting Period

      From July 1, 2008, through December 31, the period covered by this
report, the OIG processed 516 Section 1001-related complaints.4

       Of these complaints, we concluded that 338 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 270 of
these 338 complaints involved allegations against agencies or entities outside
of the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 68 of the 338 complaints raised allegations that, on
their face, did not warrant investigation. Complaints in this category included,
for example, allegations that the FBI was harassing individuals through the use
of electromagnetic, chemical, and electronic mind control devices.

      The remaining 178 of the 516 total complaints involved DOJ employees
or components and included allegations that required further review. We
determined that 170 complaints raised management issues that generally were
not related to our Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this
category included inmates’ allegations about the general conditions at federal
prisons and complaints that the FBI did not initiate an investigation into
particular allegations.

      The OIG identified the 8 remaining complaints as matters that we
believed warranted an investigation to determine if Section 1001-related abuse
occurred. One of the eight matters was investigated by the OIG and we


     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
referred the other seven matters to the BOP for investigation. We discuss the
substance of these 8 complaints in the next section of this report.

       None of the 516 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        516

      Unrelated complaints:                        338

      Total complaints within OIG’s
      jurisdiction warranting review:              178

         •   Management issues:                    170

         •   Possible Section 1001 matters
             warranting investigation:                8

    B. Section 1001 Cases This Reporting Period

      1. New matters

       During this reporting period, the OIG opened one new Section 1001
investigation. Additionally, the OIG referred 7 Section 1001-related complaints
to the BOP for investigation.

      The following is a summary of the new matter opened by the OIG during
   this reporting period:

         •   The OIG investigated a Muslim inmate’s allegation that he was
             retaliated against by BOP staff for filing a federal lawsuit against
             staff members of two BOP facilities. As a result, the complainant
             alleged that he was placed in segregation, his mail and e-mail were
             unnecessarily delayed, he was labeled a terrorist, he was pushed
             into a wall by a correctional officer, and he was subjected to
             alcohol testing more often than other inmates. The OIG
             interviewed the inmate and he provided an affidavit alleging the
             above misconduct. Subsequent to his interview, the inmate
             withdrew all claims against BOP staff and cited emotional distress
             as the reason for his false allegations.




Office of the Inspector General, U.S. Department of Justice            Page 5
      The following 7 complaints were referred by the OIG to the BOP for
investigation during this reporting period. The investigations of 4 of these
matters are continuing. BOP completed its investigations of the other 3
matters and concluded that the complaints were not substantiated. For each
of these referrals, we requested that the BOP provide the OIG with a copy of its
investigative report upon completion of the investigation.

      Continuing investigations:

         •   The spouse of a Muslim inmate alleged that she was mistreated by
             BOP staff when she visited her husband because she is Muslim.
             The complainant alleged that on one occasion she was ordered to
             remove her bra when a metal detector alerted as she entered the
             facility. The complainant also alleged that BOP staff treated her
             differently from another female visitor who was not Muslim.
             Specifically, she complained that she was subjected to a physical
             search while the other female visitor was only required to be
             screened by a hand-held metal detector. The BOP’s investigation
             of this matter is ongoing.

         •   A Muslim inmate alleged that a BOP facility did not provide
             adequate locations within the housing unit for prayer. The inmate
             also claimed that he and other Muslim inmates were forced to work
             during times when they are required by their religion to pray, and
             that they were not permitted to bring their prayer rugs to their job
             sites within the facility. The inmate alleged further that BOP staff
             interrupted him when he attempted to pray in the recreation yard
             or in other areas of the facility, reportedly telling him that BOP
             rules do note allow prayer in public locations where inmates
             congregate or at job sites. Finally, the inmate also alleged that the
             facility does not offer a Halal diet, and as a result he is forced to
             eat foods prohibited by his religion. The BOP’s investigation of this
             matter is ongoing.

         •   An inmate alleged that he and another inmate were verbally
             abused by a correctional officer because they are Muslim. The
             inmate also alleged that another correctional officer issued him 14
             days of “extra duty” “for what Muslims did on 9/11.” The BOP is
             investigating these allegations.

         •   An inmate alleged that a BOP correctional officer ridiculed his
             Muslim faith and made derogatory and disparaging remarks about
             Islam. The correctional officer allegedly told the inmate that
             Muslim inmates should not have special rights in prison and that
             all inmates should be required to eat the same food. The inmate
             alleged further that the correctional officer told the inmate that the


Office of the Inspector General, U.S. Department of Justice              Page 6
             Prophet Mohammad was only a man. The inmate also alleged that
             BOP personnel conspired illegally to prevent him from consuming a
             diet in accordance with his religious beliefs. The BOP continues to
             investigate this matter.

      BOP investigations that have been closed:

         •   An inmate alleged that a correctional officer “maliciously” searched
             his cell, threw his Koran on the floor, and spit tobacco juice on it.
             The inmate and his cellmate were interviewed. Neither witnessed
             the correctional officer throw the Koran on the floor or spit on it,
             and the correctional officer denied the allegations. The BOP
             concluded that the allegations were unsubstantiated.

         •   An inmate alleged that a correctional officer refused to give him ice
             for his drinking water for three days and told him that he did not
             deserve such luxuries and that he should suffer. The inmate
             alleged that the same correctional officer “gives problems” to all
             Muslim inmates. BOP’s investigation revealed that the inmate was
             not given ice because he failed to follow a correctional officer’s
             instructions, became verbally abusive, and threw ice buckets at
             the correctional officer. Additionally, the correctional officer denied
             making the alleged comments or harassing any inmate. The BOP
             concluded that the allegations were unsubstantiated.

         •   An inmate alleged that a correctional officer forcibly removed his
             religious headwear and threw it on the floor. BOP’s investigation
             revealed that the inmate’s religious headwear was actually a
             bedsheet and that the inmate had been previously warned by BOP
             staff not to wear his bedsheet while outside his cell. The BOP
             concluded that this allegation was unsubstantiated.

      2. Cases referred to BOP during previous reporting periods that the
         OIG continues to monitor

       The OIG referred the following 4 complaints to the BOP for investigation
during a prior reporting period. The investigations of 2 of these matters are
completed, with BOP finding that the allegations were substantiated. The OIG
continues to monitor the ongoing BOP disciplinary proceedings in these
matters. BOP completed its investigations of the 2 other matters and
concluded that the complaints were not substantiated. For each of these
referrals, we requested that the BOP provide the OIG with a copy of its
investigative report upon completion of the investigation.

         •   An inmate alleged that he has been subjected to continuous
             discrimination and verbal abuse by BOP employees because he is


Office of the Inspector General, U.S. Department of Justice               Page 7
             from Afghanistan. The BOP’s investigation sustained the allegation
             of unprofessional conduct against two BOP employees, and this
             matter is pending disciplinary action.

         •   A BOP employee alleged that he was being verbally abused by BOP
             staff because he is Muslim. The BOP’s investigation substantiated
             that a correctional officer acted unprofessionally during a
             conversation with the complainant. However, the complainant’s
             allegation that the correctional officer and others made disparaging
             remarks to him about his national origin and sexual relations with
             his wife were not substantiated. This matter is pending
             disciplinary action.

         •   An inmate alleged that a BOP physician’s assistant refused to
             provide him with medical treatment and called him a terrorist. The
             inmate further alleged that the physician’s assistant made false
             entries to his medical records chart that tarnished his character.
             The BOP continues to investigate this matter.

         •   An inmate who is originally from Pakistan alleged that he has been
             discriminated against by BOP employees because of his race and
             religion. The inmate alleged that he has been transferred several
             times and unfairly placed in the Special Housing Unit, where he
             was harassed by correctional officers, did not receive timely
             medical treatment, had his legal documents confiscated, and was
             forced to sleep on dirty bed linens. The BOP continues its
             investigation of this matter.


      3. Previously opened investigations closed during this reporting
         period

      The OIG closed 2 Section 1001-related investigations during this
reporting period that had been opened in an earlier period. Those cases are
summarized below:

         •   The OIG investigated allegations that a BOP inmate was physically
             and verbally abused by correctional officers because of his Arab
             ethnicity and Muslim faith. For example, the inmate alleged that
             correctional officers pushed him against a wall, placed him in a
             cold cell with water on the floor, confiscated his undergarments
             and replaced them with undergarments with holes, and
             confiscated his legal documents and “misplaced” them. The OIG
             investigation substantiated some of the allegations. The OIG
             investigation concluded that the inmate was subjected to verbal
             abuse by two correctional officers because of his ethnicity and


Office of the Inspector General, U.S. Department of Justice            Page 8
             religion, and that one of the correctional officers physically abused
             the inmate by pushing him into a wall. The OIG investigation did
             not find sufficient evidence to substantiate the other allegations.
             The OIG provided its findings to the BOP for appropriate
             disciplinary action.

         •   The OIG investigated an inmate’s allegations that a BOP employee
             called an inmate a “nigger” and a “towelhead Taliban,” punched
             him in the face, and shoved him into a shower stall. The inmate
             further alleged that he requested an injury assessment but did not
             receive one. During the course of the investigation, the inmate
             refused to submit to a polygraph examination and then admitted
             that he had fabricated the allegations.

      BOP completed its investigations of 5 Section 1001-related matters
during this reporting period that had been referred by the OIG in prior periods.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report upon completion of the investigation.

         •   An inmate complained to the BOP and in a lawsuit he filed in
             federal court that BOP officials unfairly classified him as an
             Islamic extremist and placed him on the “International Terrorist
             Watch List” in retaliation for his Islamic writings. The inmate
             complained further that after the court ordered his transfer to
             another facility so he could be closer to his family, the BOP
             increased his security classification, rendering him ineligible for
             the transfer. The BOP’s investigation found that location of the
             inmate’s housing was determined by the Designation Computation
             Center (DSCC). The DSCC did not follow the court’s housing
             recommendation because the recommended facility was
             overcrowded. The BOP investigation concluded that the inmate’s
             security level was assessed when he arrived at the facility
             according to objective standards. The inmate was designated as
             medium security. Subsequent re-scoring of the inmate’s custody
             classification again resulted in the determination that he was
             within the medium classification range. The BOP concluded there
             was insufficient evidence to substantiate the inmate’s allegations.

         •   The OIG referred to the BOP for investigation an allegation from
             the wife of a Muslim inmate that BOP staff wrongly reported that
             she and her husband engaged in a sexual act while in the visiting
             room of a BOP facility, which resulted in the complainant losing
             her visitation rights and her husband being placed in the Special
             Housing Unit. The complainant alleged that the BOP was
             discriminating against her and her husband because of their
             Islamic faith. The BOP’s investigation determined that a BOP


Office of the Inspector General, U.S. Department of Justice              Page 9
             employee observed what he believed was sexual contact between
             the inmate and his visitor. However, the videotape that was
             supposed to be filming the visiting room was blank. Because the
             inmate had two prior sustained incidents of engaging in sexual
             acts on his record, and because the BOP employee was insistent
             about what he had witnessed, the BOP staff terminated the visit
             and imposed discipline on the inmate. With respect to the
             complaint from the inmate’s wife, the BOP concluded there was
             insufficient evidence to substantiate the allegation that BOP
             employees acted in a discriminatory manner.

         •   The OIG referred to the BOP for investigation allegations made by
             an inmate that the BOP placed him in a Medium High security
             facility when his security classification was designated as “low,”
             that he was regularly called a terrorist by BOP staff members, that
             he has been subjected to “administrative sanctions and racial
             epithets” on a regular basis, and that he was required to use a
             phone in a correctional officer’s office rather than the phone in his
             housing unit. The BOP’s investigation determined that the inmate
             was in the correct security facility based on his “security threat
             assignment,” and that his telephone privileges were restricted to
             use of a specifically designated telephone. The BOP’s investigation
             also reported that the inmate was unable to provide any witnesses
             to corroborate his allegations. The BOP concluded there was
             insufficient evidence to substantiate the allegations.

         •   The OIG referred to the BOP for investigation allegations by an
             inmate that he and his father were unfairly placed in the Special
             Housing Unit for 8 months and that a correctional officer called
             him and his father “terrorists” and told them that no one cared
             about them. When interviewed by BOP investigators, the
             correctional officer denied calling the inmate a terrorist or making
             any other inappropriate comments to the inmate. The BOP’s
             investigation also determined that the inmate had been the subject
             of a separate investigation based on allegations that he was
             engaged in radicalization and recruitment activities within the
             prison facility, and that the inmate was placed in the Special
             Housing Unit in connection with those allegations. The BOP
             concluded there was insufficient evidence to substantiate the
             inmate’s complaint.

         •   An inmate alleged that he was being harassed and discriminated
             against by BOP correctional officers because he is Muslim and of
             Pakistani origin. Specifically, the inmate alleged that his telephone
             privileges were suspended because of his language; he was placed
             in the Special Housing Unit without explanation; his non-English


Office of the Inspector General, U.S. Department of Justice             Page 10
            mail was delayed for up to 2 months; and he was forced to work at
            his job for long periods of time, which did not leave him with
            sufficient time to practice his religion. The BOP’s investigation
            determined that specific security concerns about the inmate
            resulted in his housing placement, job assignment, and
            restrictions on his communications. In addition, the correctional
            officers involved denied that they harassed or discriminated
            against the inmate because of his religion or ethnicity. The BOP
            concluded there was insufficient evidence to substantiate the
            allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the FBI’s Use of Exigent Letters and Other Improper
         Requests for Telephone Records

       As a follow-up to our reviews of the FBI’s use of national security letters
(NSL), the OIG is investigating the FBI’s use of exigent letters and other
improper requests to obtain telephone records. In our first report on NSLs,
issued in March 2007, we reported on a practice by which the FBI used over
700 exigent letters rather than NSLs to obtain telephone toll billing records.
We determined that by issuing exigent letters the FBI circumvented the NSL
statutes and violated the Attorney General’s Guidelines and internal FBI policy.
Our investigation is examining in greater detail the FBI’s use of exigent letters
and its issuance of “blanket” NSLs used to “cover” or validate the information
obtained from exigent letters and other improper requests.

      B. Review of the Department’s Involvement with the National
         Security Agency’s Terrorist Surveillance Program or Warrantless
         Surveillance Program

      The OIG is reviewing the Department’s involvement with the National
Security Agency (NSA) program known as the “terrorist surveillance program”
or “warrantless surveillance program.” This ongoing review is examining the
Department’s controls over and use of information related to the program and
the Department’s compliance with legal authorities governing the program.

      The Foreign Intelligence Surveillance Act of 1978 Amendments Act of
2008 (FISA Amendments Act) requires intelligence community inspectors


Office of the Inspector General, U.S. Department of Justice             Page 11
general, including the Department of Justice OIG, to conduct a comprehensive
review of the terrorist surveillance program. The law specifies that the
Inspectors General avoid duplication and delay by coordinating their reviews of
the program. The Inspectors General involved have begun coordination to
comply with the requirements of the Act. The Department of Justice OIG is
coordinating its review with the other Inspectors General.

      C. The FBI’s Terrorist Threat and Suspicious Incident Tracking
         System

      In November 2008, the OIG issued an audit that evaluated the FBI’s
principal automated tracking system – the Guardian Threat Tracking System
(Guardian) – that follows up on terrorist threats and suspicious incidents.
From July 2004 through November 2007, Guardian documented almost
108,000 potential terrorism-related threats, reports of suspicious incidents,
and terrorist watchlist encounters.

      Guardian assigns responsibility for follow up on counterterrorism threats
and suspicious incidents to FBI field offices, and can also be used to distribute
immediate threat information to users. Guardian is also capable of analyzing
threat information for trends and patterns.

      The OIG audit concluded that Guardian represents a significant
improvement over how the FBI previously tracked and handled threat
information by allowing users to enter suspicious activity and threat
information and manage threat assessments through an improved workflow
process. However, the OIG review found that Guardian requires better
oversight to enhance its functionality and value and to better ensure accuracy,
timeliness, and completeness of the information entered into the tracking
system.

       The FBI has also developed E-Guardian, a complementary threat-
tracking system that will allow state and local law enforcement to share local
terrorism incident information with the FBI, as well as receive nationwide
unclassified terrorism incident information from Guardian. However, the OIG
review found that the deployment of E-Guardian has been delayed for about
one year.

       The audit made seven recommendations to improve the FBI’s tracking of
terrorist threats and suspicious incidents. Recommendations include ensuring
that supervisors review and close out all Guardian incidents, affirming that
high-priority and urgent threats from ongoing counterterrorism cases are
included in Guardian, developing and incorporating performance measures to
support the resolution of terrorist threats and suspicious incidents, and
developing and implementing a timetable that ensures technical patches
enhance the optimal system operation of Guardian, and that the patches are


Office of the Inspector General, U.S. Department of Justice            Page 12
completed in a timely manner. The FBI concurred with all of our
recommendations and has implemented measures to address them.

      D. The FBI’s Watchlist Nomination Practices

       The OIG is conducting an audit that relates to our March 2008 review of
the Department’s processes for nominating individuals to the
consolidated terrorism watchlist maintained by the TSC. This audit is
examining whether subjects of open FBI cases are appropriately and timely
watchlisted and whether watchlist records are updated with new identifying
information as required. The audit is also examining whether subjects of
closed FBI investigations are appropriately removed from the consolidated
terrorist watchlist in a timely manner.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,143,889 in
personnel costs, $3,811 in travel costs (for investigators to conduct interviews),
and $1,896 in miscellaneous costs, for a total of $1,149,596 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 13
